HHS/OIG-Audit--"Review of Medicaid Claims for County Nursing Facility Supplementation Payments by the Commonwealth of Pennsylvania, (A-03-00-00211)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Claims for County Nursing Facility Supplementation Payments by the Commonwealth of Pennsylvania," (A-03-00-00211)
June 5, 2001
Complete
Text of Report is available in PDF format (1.23 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Under Medicaid upper payment limit rules, States are permitted to establish payment methodologies that allow for enhanced
payments (called supplementation payments in Pennsylvania) to non-State-owned government providers, such as county nursing
facilities. This final report points out that in reporting supplementation payments to the Health Care Financing Administration
(HCFA), the Pennsylvania Department of Public Welfare (DPW) over claimed $89 million in Federal matching funds for the
period 1997 through 1999. In addition, we estimate that DPW may have over claimed an additional $65 million for 1990 through
1996, bringing the total overpayment to a potential $155 million. The over claimed amounts represent the differences between
(1) the actual supplementation payments supported by intergovernmental transfers and DPW voucher transmittals and (2) claimed
supplementation payments actually reported by DPW to HCFA. We recommended that DPW; (1) discontinue the practice of over
claiming Federal matching funds by over reporting supplementation payments; (2) refund $89 million to the Federal Government;
and (3) together with HCFA, determine if the practice of over claiming such costs occurred for the period 1990 through
1996, and if so, refund the associated excess Federal matching funds we estimate to be $65 million.